<html>
<title> - HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-918]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-918

                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             JULY 17, 2002

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

86-215              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel

            David L. Johnson, Chief Counsel for the Minority

                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Homeland Security................................................    01

                              ----------                              

                        Wednesday, July 17, 2002
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................    01
                              ----------                              

                               WITNESSES

Ridge, Hon. Tom, Director, Offic of Homeland Security, 
  Washington, DC.................................................    02
Torres, Hon. Alfonso, Associate Dean, Veterinary Public Policy, 
  and Director, New York State Animal Health Diagnostic 
  Laboratory, College of 
  Veterinary Medicine, Cornell University, Ithaca, New York......    21
Veneman, Hon. Ann M., Secretary, United States Department of 
  Agriculture, Washington, DC....................................    14
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lugar, Hon. Richard..........................................    30
    Ridge, Hon. Tom..............................................    31
    Torres, Alfonso..............................................    40
    Veneman, Hon. Ann M..........................................    37
Document(s) Submitted for the Record:
    Allard, Hon. Wayne...........................................    57
    American Nursery & Landscape Association (ANLA) and Society 
      of 
      American Florists (SAF)....................................    63
    Baucus, Hon. Max.............................................    50
    Leahy, Hon. Patrick..........................................    59
    Letter from Wayne Pacelle and Mimi Brody.....................    62
    Letter to Secretary Ann M. Veneman from Senator Richard Lugar    61
    Nelson, Hon. Ben.............................................    56
    Roberts, Hon. Pat............................................    51
Questions and Answers Submitted for the Record:
    From Senator Tom Harkin to Governor Tom Ridge (No answers 
      were provided).............................................    79
    From Senator Tom Harkin to Secretary Ann M.Veneman (No 
      answers were provided).....................................    78

                              ----------                              


 
                           HOMELAND SECURITY

                              ----------                              


                        WEDNESDAY, JULY 17, 2002

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present or submitting a statement: Senators Harkin, 
Lincoln, Miller, Nelson, Dayton, Lugar, Roberts, Thomas, 
Allard, Hutchinson, and Crapo.

 STATEMENT OF TOM HARKIN, A U.S. SENATOR FROM IOWA, CHAIRMAN, 
                   COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    The Chairman. The Committee on Agriculture, Nutrition, and 
Forestry will come to order for this hearing on homeland 
security.
    The President has stated and we all agree that we have to 
be ready to respond to protect American interests against the 
new and very dangerous threat of terrorism. Protecting our 
borders and keeping our residents safe from harm is our 
Government's highest priority and represents an increasingly 
big challenge to all of us. President Bush's proposal for a new 
Department of Homeland Security included a call for the 
transfer of the Animal and Plant Health Inspection Service, 
APHIS, but recently the administration has indicated it is 
agreeable to some of the provisions that they worked out with 
the House in terms of transferring some of APHIS' functions 
regarding Plum Island and some border security.
    I won't go into all the details on that except to say that, 
at least from this chairman's standpoint, we want to do 
everything we can to make sure that the new Office of Homeland 
Security is up and running as soon as possible, that it 
functions as it is supposed to function, and that we transfer 
or get to this new Department of Homeland Security what is 
necessary to do their job, but in the most efficient manner, so 
that we can still have an Animal and Plant Health Inspection 
Service that protects the health and well-being of our people 
in this country but also that the new Homeland Security Office 
can do its job in protecting our borders. That is the 
standpoint from which I approach this, and what works the best 
and what works more efficiently, that is what we want to do.
    In the interest of time, since we have a 2:30 vote, I will 
dispense with reading any more of my statement. If the Senators 
don't mind, if we could go right to Governor Ridge right away, 
I would certainly appreciate it. We are honored indeed----
    Senator Roberts. Excuse me, Mr. Chairman.
    The Chairman. Yes?
    Senator Roberts. I have a statement I would like to insert 
in the record at this point on behalf of Senator Lugar.
    The Chairman. Absolutely. I am sorry. I apologize. Senator 
Lugar is unavoidably detained and will not be able to join us.
    [The prepared statement of Senator Lugar can be found in 
the appendix on page 30.]
    The Chairman. Any other Senators that have a statement they 
want to put in the record, it will be made part of the record 
in its entirety right now.
    Governor Ridge, we welcome you here. We thank you for the 
great job you are doing. As a former colleague of ours, we are 
proud of what you are doing down there, and we look forward to 
working with you to make this transition as smooth and as 
seamless as possible. Please, welcome to the committee, and 
your statement will be made a part of the record in its 
entirety. Proceed as you so desire.

   STATEMENT OF HON. TOM RIDGE, DIRECTOR, OFFICE OF HOMELAND 
                    SECURITY, WASHINGTON, DC

    Mr. Ridge. Well, Mr. Chairman, first of all, it is a 
pleasure to accept your invitation to spend this afternoon with 
you, at least part of the afternoon, and in the interest of 
getting into the kind of conversation and dialog that the 
committee was interested in when you extended the invitation in 
the first place, I would ask obviously unanimous consent that 
my full statement be included as part of the record. I had 
reduced it considerably, but we are on a short clock, and we 
ought to get into the conversation.
    You understand that the President appreciates the 
bipartisan support that has been evidenced so far in both 
chambers as we work together to achieve a mutual goal, and that 
is the creation of a Department of Homeland Security. You are 
very familiar with the units and the basic desire to create a 
department whose primary focus, primary mission is the security 
of this country. You understand that I am testifying today 
pursuant to an Executive order creating a transitional planning 
office for the new department, and I testify today as the 
Director of that planning office. Since all of the members are 
conversant with the provisions of the President's proposal and 
may or may not have had the opportunity to review the remarks, 
in the interest of conserving some time and getting into the 
conversation that we both think is very important to advancing 
our mutual effort to get this department set up, I conclude my 
remarks, and let's have at it.
    The Chairman. Thank you very much, Governor Ridge, and I 
will limit myself to 3 minutes, and then I will try to give 3 
minutes back and forth to all the Senators who are here. 
Whoever is running this clock, if you would put it on 3 minutes 
for me.
    Again, Governor, essentially the proposal we have before us 
would transfer all of APHIS' front-line employees charged with 
responding to agricultural health concerns, about 3,200 of 
them. To cover its domestic agricultural health 
responsibilities, APHIS then would have to borrow some of these 
employees back. USDA and the White House indicate that at any 
one time APHIS would have to borrow maybe 15 to 20 percent of 
those 3,200 former employees to meet domestic agricultural 
health responsibilities.
    Furthermore, the proposal states that APHIS will be 
responsible for training these 3,200 employees sent to the new 
department and will set forth the policy regarding what they 
are supposed to look for and how they do their inspections. 
Again, I don't know--what we want to--is this the most 
efficient management structure that we can come up with in 
terms of what your responsibilities are and what our 
responsibilities are in terms of just domestic Animal and Plant 
Health Inspection Service? As I said one time to one of your 
staff, I said surely you don't want to get into things dealing 
with corn bores and boll weevils and glassy wing sharpshooters 
and things like that, plus meat inspection and all that kind of 
endeavor. We have to determine what is the best management 
structure for you to be able to get these people when you need 
them and for us to continue the ongoing job of regular Animal 
and Plant Health Inspection Service. What are your thoughts on 
that?
    Mr. Ridge. Well, Mr. Chairman, thank you. As you know, the 
President's original proposal called for the complete 
integration of APHIS into the new Department of Homeland 
Security, and working with Members of Congress and looking for 
means to refine the allocation of those resources, particularly 
those invaluable people in a way that enhanced our ability to 
secure the borders and prevent an agroterrorism event by 
detection at the borders, we have kind of refined that initial 
proposal to just include the specialized border inspection and 
enforcement services. It seems to me that in the event that 
there is a need for the Department of Agriculture to use some 
of these men and women in another capacity, that could be 
worked out in a memorandum of understanding between the two 
agencies.
    Originally, as you are well aware, the grafting of the 
entire department would have been about 8,000 people, in 
recognition that there was a--we thought there was a clear line 
and a very good integration at the border for security and 
detection purposes to just include the specialized inspection 
group. Hopefully the concerns that you have addressed regarding 
these individuals being tasked to do other things just could be 
worked out with an executive memorandum between the two 
Secretaries.
    The Chairman. I hope so. Thank you very much, Governor.
    In order of people who arrived, I would go down the list to 
Senators Roberts, Nelson, Hutchinson, Thomas, Allard, Miller. 
Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Tom, thank you for your leadership, and thank you for being 
in a listening mode, more especially in regards to APHIS, the 
Department of Agriculture, and the obvious need to tighten up 
our border security.
    Senator Allard, who is probably the pre-eminent expert with 
expertise with his background in veterinary medicine, and I 
have a bill that pretty well mirrors what the House has 
suggested in regards to the division of labor and who we put on 
the boilers from APHIS and who we keep in APHIS and the 
function of that agency. It is my understanding that all these 
functions that the chairman has mentioned, that the House bill 
has been agreed to by you, and since our bill pretty much 
mirrors, is almost the same, as a matter of fact, and we plan 
to introduce that on Monday, would you be in favor of that 
bill? Have you agreed pretty much to the House proposal?
    Mr. Ridge. The answer, Senator, is yes. We think it gives 
us the refinement and better management that the chairman and 
you were concerned about. Yes, the administration would support 
that refinement of its proposal.
    Senator Roberts. Assume we have a foot-and-mouth--well, 
thank you for that answer, No. 1. Assume we have a foot-and-
mouth outbreak that we eventually determine is a result of an 
intentional introduction in the United States. At the point 
that determination is made, who would be in charge of handling 
the situation, tracking down those who are responsible, and the 
consequence management? We hope, of course, to detect, to 
prevent, to deter, but in case we got into consequence 
management, would that be the USDA or the Department of 
Homeland Security? I am assuming the FBI would be in charge, 
too, as well, not to mention probably the National Guard under 
the circumstances. Have you really determined that kind of a 
situation to the degree that you can answer that kind of a 
question?
    Mr. Ridge. Senator, we have. In the President's national 
strategy, it talks about the elimination of the pre-existing 
division of labor at a time a terrorist incident occurs. You 
and I are now talking about an agroterrorist incident, 
bioterrorist incident perhaps. There is a distinction between 
crisis management and consequence management, and we think it 
was more rhetorical than it was practical. In the event of a 
terrorist incident of any nature, the Department of Homeland 
Security would have the coordinating role, but then, again, the 
FBI would be the leading law enforcement agency. The Department 
of Agriculture and the other relevant--in dealing with 
agriculture may head up the scientific and agricultural portion 
of that. The Department of Homeland Security would have the 
overall coordinating mission at the time an event occurred like 
that and was identified as a terrorism event.
    Senator Roberts. Are you anticipating in the near future, 
say this spring, some exercise with some of our land grant 
schools to work through that kind of a scenario?
    Mr. Ridge. Senator, we believe that one of the basic 
responsibilities of the new department and one of the real 
opportunities to get communities prepared, which in itself may 
end up preventing attacks, is expending resources and working 
with State and locals on this very kind of exercise that you 
are talking about. We need to do that in the urban and suburban 
community, but we need to do it in the rural America as well. 
We view agriculture as a critical part of our economic 
infrastructure, one-sixth of our gross domestic product. An 
agroterrorism event would have enormous economic implications, 
let alone the potential of loss of life. Engaging the 
agricultural community in these kind of exercises would be very 
much a part of what the new agency would intend on doing.
    Senator Roberts. My time is up, and I thank you for yours.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. Governor Ridge, it 
is great to have you here today and to get a chance to see you 
again.
    You have already pretty well made it clear that balancing 
efficiency, food safety, and food security is going to be a 
challenge that must be undertaken. I guess one of my first 
questions is: Can both food safety and food security be 
accomplished with APHIS? In other words, there is a major 
difference between what APHIS does today just on the food 
safety side that when you add food security, recognizing that 
it may be subject to a terrorist act, that this is--do you 
think, first of all, it can be a challenge?
    Second, in that regard, should we be looking at other 
facilities such as the NIH and the CDC being transferred as 
well? As Dr. Torres has--at least it is rumored that he has 
suggested that.
    Mr. Ridge. Well, Senator, it is clear that there are 
synergies in science that relate to both food security and food 
safety. As a matter of fact, the science relative to food 
security is probably derived from much of the work that has 
been done by the Department of Agriculture and others----
    Senator Nelson. It isn't necessarily a duplication of 
efforts?
    Mr. Ridge. I don't think so. When it comes to security and/
or safety, a little redundancy is probably not a bad thing to 
have as it affects one-sixth of your gross domestic product, 
anyhow. When it comes to the border where we try to push the 
perimeter out and try to prevent these pathogens, this 
intentionally contaminated food or plant life from coming into 
the United States, we felt that the refinement of the APHIS 
provision got us to where we need to be. Clearly there will 
continue to be great collaboration and cooperation between the 
Department of Homeland Security and the Department of 
Agriculture and the other agencies that deal with food safety 
issues as well.
    Senator Nelson. Do you think then, though, that it might be 
synergy that would be involved with NIH and CDC?
    Mr. Ridge. It is invariable when the scientists get 
together to deal with the pathogens that could affect humans, 
affect animals, and affect plant life. I suspect there is 
probably some synergies there that exist today, and nothing we 
would do within the Department of Homeland Security would in 
any way inhibit further collaboration. We want these resources 
to be focused, depending on how we perceive a particular 
threat. If there is a threat of a particular kind of 
agroterrorism incident, we may need to ramp up the work that is 
being done not through just the agencies that the Department of 
Agriculture normally works through, but the CDC and NIH as 
well.
    It remains to be seen, but we have to be as flexible and as 
nimble and as aggressive as our enemies might be, which means 
we may have to direct certain kinds of research being done as 
quickly as possible.
    Senator Nelson. Thank you, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Next, Senator Hutchinson.
    Senator Hutchinson. Thank you, Mr. Chairman. Governor 
Ridge, thank you for your appearance. You are making a lot of 
appearances on the Hill these days, and we thank you for your 
patience in this huge task that is ahead of us. I commend you 
again for your leadership and your service to our country.
    I was talking with somebody this week who was involved in 
the creation of the Department of Energy back in the 1970's, 
and the complexity of what we are involved in is far greater 
than even the Department of Energy or the Department of 
Education or the Department of Veterans Affairs, all of which 
had complexities but nothing like what we are facing here, the 
number of agencies involved and the number of departments that 
are affected.
    Let me, first of all, say thank you for your comments on 
APHIS, and I concur with what my colleagues have said about the 
importance of taking a reasonable approach, and the House has 
done that, and I appreciate your response to Senator Roberts' 
question in particular.
    On the broader issue of creating this new department and 
the number of agencies involved and the complexity, do you feel 
that you have the kind of flexibility that you need to 
accomplish the goals? Are there statutory needs or changes that 
need to be made to ensure that the new department accomplishes 
the goals that have been laid out for it? Do you have that kind 
of flexibility?
    Mr. Ridge. Senator, we are asking the Congress of the 
United States to give the new management team of this 
department flexibility to deal with personnel, flexibility to 
deal with the organization, and flexibility to deal with the 
transfer and reprogramming of funds. It is absolutely critical, 
as we set up this very large and very complicated agency, that 
the ability to attract and retain people and giving the 
Secretary and his team discretion above and beyond what might 
exist under Title 5 or civil service is absolutely essential.
    The President has made it very clear. Historical, 
traditional, all Title 5 protections will continue to exist in 
this department: whistleblower protection, civil rights 
protection, veterans' preference protection. These men and 
women transfer over with collective bargaining rights, with 
their pay and their benefits. We do need to give the new 
management team some flexibility to move some people around, to 
reorganize.
    Clearly, given the nature of the mission of this agency, if 
there are savings to be realized by the reorganization--and we 
see immediately in the first couple of years, depending on how 
we construct the information technology piece and how we build 
the technological architecture, we can probably save some 
money. It is the hope of the President and the desire and the 
request before Congress that if you save certain dollars in one 
area of homeland security, you have the flexibility to apply 
them someplace else for homeland security. On that note, it is 
the request of the President--I know it is very controversial. 
It is very contentious. I hope everybody takes a good, honest, 
solid look at this. The ability for this Secretary to transfer 
some funds on an annual basis, we have requested up to 5 
percent, but to vest the discretion of that piece of the budget 
to the Secretary and his management team in order to react and 
respond to a threat, react and respond to a need, react and 
respond to a priority, we think is critical to maximize the 
effectiveness of this organization.
    We have requested congressional support of the management 
flexibility that is provided in the President's proposal and 
hope we can secure some bipartisan support for it.
    Senator Hutchinson. Well, Governor, I know it is 
controversial, but I certainly hope given the implications for 
the health and safety of the American people and the security 
of the homeland that you will be given that. That is a 
reasonable request, and I hope we will comply with it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchinson.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. Welcome, Governor.
    The comments that have been made are pretty much the 
comments that I guess I would have. In Wyoming, our producers 
rely on APHIS primarily for two things: one is predator control 
and the other is disease monitoring, brucellosis and scrapie, 
whatever. We hope that core can continue to do what it has been 
doing, and certainly we don't deny that some parts should be 
transferred and we hope to do that. I don't think the whole 
thing should be transferred, and you have indicated that you do 
not either. I hope your department can be kept as small and 
simple as possible to get your job done.
    What about Plum Island? Is that something that will be part 
of your activities?
    Mr. Ridge. Well, we have asked for it in the President's 
initiative, Senator. It is more than a symbolic profiling, 
raising the visibility of potential agroterrorism activity. 
Plum Island does a great deal of detection research in the area 
of agriculture, and having that capacity within the Department 
of Homeland Security and ultimately sharing the resource, 
however, with the Department of Agriculture is ultimately how 
it is going to work out. Connecting the capacity at Plum Island 
to the security mission of the Department of Homeland Security 
is something we felt was consistent with the mission of the new 
agency.
    Senator Thomas. We appreciate your efforts and appreciate 
your flexibility. I hope we can be a little flexible as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thomas.
    As was said, I am sure this committee will look for a lot 
of guidance on a lot of these issues from Senator Allard, who 
is a veterinarian. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I appreciate the 
opportunity to serve on this committee and work with you and 
Senator Roberts. I know that you in your own right are very 
knowledgeable about a lot of veterinary issues. You have a vet 
school in your home State. We have talked about the importance 
of some of these issues.
    Mr. Ridge. The University of Pennsylvania has a pretty good 
one, too.
    Senator Allard. They do. You are absolutely right.
    Mr. Ridge. A plug in for the home team.
    Senator Allard. The three top vet schools.
    The Chairman. I want you to know that my niece just 
graduated from vet med school at Pennsylvania.
    Senator Allard. I am sorry. Maybe five or six, if we keep 
looking at all the members on the committee.
    I just wanted to raise one question as far as Plum Island. 
As most members of the committee know, and you probably know, 
too, we deal with a lot of diseases on Plum Island--it is 
Federal research--that don't occur in the United States. We 
need to understand those diseases, and lots of times we say 
that those diseases do not occur on the mainland of the United 
States, ignoring the fact that we have Plum Island off to the 
side, so technically that is correct. The water barriers and 
whatnot provide some security, but what are your thoughts about 
enhancing security? It is very important because of the vital 
type of research that is conducted there and the potential of 
some of those diseases being introduced inadvertently, whether 
by birds or whatever, onto the mainland. Are you thinking about 
beefing up security there? Or, do you think it is pretty 
adequate right now?
    Mr. Ridge. Senator, I am ill-equipped to make an assessment 
as to the security at Plum Island today. I know that they 
have--the Secretary of Agriculture and the Secretary of Health 
and Human Services and those members of the Cabinet have all 
looked at their own infrastructure subsequent to, even some of 
them before 9/11, to determine whether or not it was vulnerable 
to any kind of terrorist attack in and of itself and have begun 
to enhance security.
    I would think that one of the most important initial 
missions for the new Secretary of the new Department would be, 
as he or she goes about the business of aggregating all these 
resources to protect the homeland, is they make very sure that 
these facilities themselves have enhanced protection to 
maximize their effectiveness and use for this country.
    Senator Allard. A lot of us that have vet schools in our 
home States, understand that national support from Plum Island 
is important, as well as the national lab that we have in Iowa. 
A lot of the vet schools send specimens to Iowa, and they rely 
on a lot of research there to keep their students and everybody 
appraised of the latest technology as far as some of these 
diseases that don't occur in this country. We are in an 
environment now where our world is very small and we are 
getting more transportation of animals, such as birds and fish, 
which we have never had in the past. These functions remain 
extremely important, and I thank you for your interest in the 
Roberts amendment, which I worked with Senator Roberts on. I 
appreciate your working with us on that.
    Mr. Ridge. Thank you, Senator.
    The Chairman. Thank you very much, Senator Allard.
    Senator Miller.
    Senator Miller. Governor Ridge, it is good to see you 
again.
    Mr. Ridge. Good to see. Thank you.
    Senator Miller. Thank you for the job you are doing. Our 
thoughts have been with you.
    I want you to know that I support the administration's goal 
of creating a Homeland Security Department. I want you to know 
that I want to give that agency all the tools necessary to 
protect the citizens of this country. I would like to associate 
myself with the remarks that some of the Senators have already 
made, Senator Roberts about APHIS and what the House did, and 
something similar would certainly be acceptable to this 
Senator. It is a common-sense approach.
    I also would do what my other colleagues have done, and 
that is, remind you that there are a lot of land grant 
universities represented on this committee, including the 
University of Georgia that has excelled in poultry research and 
food quality. I know that you will be looking toward those 
universities and realize what they can mean in supporting your 
department. I wish you well.
    Mr. Ridge. Thank you, Senator. One of the units within the 
new department will be a science and technology unit, and it 
may not be as aptly named or might not strike you as--the way 
the phrase is or the terminology we use is the WMD 
Countermeasures. Clearly, it is a science and technology 
research and development unit that the President wants 
available to this country through the new department. As we go 
to enhance our research as it affects security issues affecting 
citizens, affecting agriculture, affecting whatever in this 
country, the President feels very strongly that we ought to 
look to existing laboratory capacity and the scientists that 
exist without trying to create our own laboratories or develop 
our own scientific base. As you pointed out, we have some 
fabulous institutions in this country with great scientists, 
great researchers, and we ought to take advantage of them.
    Senator Miller. Thank you.
    The Chairman. Thank you, Senator Miller.
    Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman.
    Welcome, Governor Ridge. We are glad to have you here.
    Mr. Ridge. Thank you, Senator.
    Senator Lincoln. I am certainly looking forward to the work 
that we can achieve together.
    Mr. Chairman, I want to thank you for holding this hearing 
and to all of the other guests that will be testifying today, 
we appreciate the input that everybody has.
    I wanted to add just a few brief remarks to what has 
already been said by several of my colleagues. I, too, think 
that the President was wise to coordinate the many border 
security and protection functions of the Federal Government 
into one new department. Of course, the integration of so many 
of these Federal agencies from so many different parts of 
Government will not be a simple affair. We do want to be able 
to work with you providing that kind of flexibility that you 
need to be able to accomplish that.
    Yesterday in the Finance Committee, Chairman Baucus held a 
hearing to look into the President's proposal to reorganize the 
functions of the U.S. Customs Service into the new Department 
of Homeland Security. At that hearing, both Chairman Baucus and 
myself expressed our reservations about folding all of the 
functions of the Customs Service into the new department. It 
makes the most sense to preserve some of the normal day-to-day 
commercial operations of the Customs Service separate and 
distinct from the border enforcement operations. Both kind of 
operations are clearly very, very important to all of which 
occurs in this country, and many here have expressed that the 
same logic applies to our consideration of what to do with 
APHIS, and certainly with some of the action that the House has 
taken. I am pleased to see that the administration has agreed 
to the House proposal that will do just that, I believe, with 
APHIS, keeping the important day-to-day agricultural functions 
within the USDA and moving also very important border security 
functions to your new Department of Homeland Security. We hope 
that this will prove to be a success not only with APHIS here 
but hopefully with other areas like U.S. Customs and others.
    This is a very prudent plan and think it will very much 
help to ensure that all of the people's business is carried 
out. I hope that we will use some of this as really a plan or a 
template as we work through how homeland security can really do 
its job in terms of, as Senator Miller mentioned, protecting 
the citizens of this great country in a security sense, but 
also recognizing the day-to-day operations that secure our 
economy through the industries of this country and making sure 
that we keep those day-to-day operations continuing.
    Just a couple of quick questions. Is my time up?
    The Chairman. I am trying to limit it to 3 minutes. We have 
about 10 minutes left in this vote on the floor, and I would 
like to get everybody in, if I could, if you could just----
    Senator Lincoln. OK. Well, can I just add these last two 
things? One is specifically how the administration does plan to 
allocate personnel between these two departments. As you 
formulate those ideas--I don't know if you have yet or not in 
terms of how you are doing that. Moving required personnel 
currently that are working in the normal agricultural 
operations of APHIS to be taken out of those jobs and sent to a 
new department. I just hope that we will take particular 
consideration in the decisions that you make there. Several of 
my colleagues have already brought this up. Will there be new 
personnel needed to fill the void that is left behind? Are we 
going to require personnel to be detailed back and forth 
between the departments as needed? All of those are very 
difficult situations, and we are already experiencing some of 
that concern of lack of personnel at USDA to begin with.
    I hope that as you approach that issue, you will recognize 
the concerns that we already have at USDA and certainly 
recognize how we can best get the functions of both the day-to-
day operations and that of homeland security.
    The other is just to mention to you in our state of 
Arkansas, Jailnet is a program I have started with the law 
enforcement officers, and we have been able to incorporate into 
that a plan called E-Plan, which provides our first responders 
with an ability to really react to bio-terrorism and some other 
things. It is a very low-cost way to get to your first 
responders and your law enforcement officers in dealing with 
things that very often can be foreign to them where they may 
not have a great deal of background. We have five States now 
connected together, and it is a really good proposal. We would 
be glad to visit with you and pass some of that along to you.
    Mr. Ridge. We would be very interested in learning more 
about that. We are finding great leadership and innovation at 
the State and local level, particularly as it relates to first 
responders. I will have someone followup with you.
    Senator Lincoln. We have all of our law enforcement 
officers connected in our State with five other States, and we 
have the first responders as well.
    Mr. Ridge. It sounds to me like a good mutual aid 
agreement.
    Senator Lincoln. There you go.
    Mr. Ridge. It sounds excellent.
    Senator Lincoln. Thank you. Thank you, Mr. Chairman.
    The Chairman. There are about 9 minutes left on the vote, 
so, Senator Crapo, then Senator Dayton, and we can let Governor 
Ridge leave.
    Senator Crapo.
    Senator Crapo. Governor Ridge, I would like to join all the 
others here in thanking you for your excellent work and 
indicate to you that I also support the President's proposal 
for this new department.
    I also would like to associate myself with the comments of 
Senator Roberts and others about the House proposal and the 
approach to which appropriate functions from APHIS should be 
shifted to the new department, and with Senator Miller and 
others who have commented about the importance of the land 
grant universities, and I look forward to working with you in 
that context.
    I just have one very quick question, and that is, in the 
area of trade, the sanitary and phytosanitary inspections and 
issues, I understand under the House proposal at least, would 
not be transferred to DHS. Is that your understanding? Would 
you support that? I guess I would really just like your general 
answer as to how your department, if established, would 
function with regard to the trade issues and the phytosanitary 
and sanitary issues that we deal with with our international 
trading partners.
    Mr. Ridge. Senator, it is my understanding that the 
specialized border inspection team will be focusing on security 
rather than food safety measures, and the FSIS and others would 
be dealing with that issue. I don't think it is transferred, 
but I need to give you more clarity and will make sure that I 
do by the end of the day.
    Senator Crapo. All right. I appreciate that. That that is 
the way it is, but I just wanted to clarify that myself.
    Mr. Ridge. All right.
    Senator Crapo. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Crapo.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Governor, I join with the others in thanking you for your 
excellent service, and I certainly also want to work and be 
supportive with you. I serve on the Governmental Affairs 
Committee, so I have had a chance to work with Senator 
Lieberman who has certainly worked closely with you, and I want 
to start by acknowledging that you made here one of the more 
cogent and insightful observations that I have witnessed in my 
now year and a half in the Senate. That is where you say on 
page 3 here that you have examined the Federal Government and 
you quickly concluded the Federal Government could be much 
better organized than it presently is. That is spoken as a 
Governor, looking at that situation, and you need obviously in 
this exercise the wisdom of Solomon in terms of what to leave 
and what to take and the like.
    However, Solomon didn't split the baby, and I guess I 
almost as a devil's advocate could kind of question--and on 
behalf of most of those involved in Minnesota, appreciate the 
change in the position that you have now taken and the 
administration regarding leaving much of this in the Department 
of Agriculture.
    Given that you have the CIA, the FBI, some of these other 
entities with whom you need close working relationships are 
being left also out of the department and left intact outside, 
is there consideration given to leaving all of this in the 
Department of Agriculture and establishing the working 
relationships you need with that Department and this entity? 
What is the advantage of splitting it and doing it that way?
    Mr. Ridge. Senator, as you have pointed out, we would like 
to have the wisdom of Solomon, but none of us do. The 
refinement of our proposal was in recognition of both 
management and mission concerns that we had after consultation, 
frankly, with Republicans and Democrats in both the House and 
the Senate. If the primary mission is security and one of the 
means that you enhance security for this country is you 
consolidate different functions at the border, you have a 
significant portion of APHIS, about 3,000 FTEs out of 8,000, 
that has an ongoing relationship with INS and Customs and very 
much a part of our border security apparatus. That seemed to be 
a very good means by which we could separate a group of these 
employees who fit very directly into the primary mission of the 
agency. The others--the balance of APHIS and those good people 
down the road, there may be some connection, but the tear line 
seemed to be the appropriate one to take. These men and women 
will be focused on security issues, as they have been, and 
should be part of a border consolidation effort.
    Senator Dayton. I appreciate the great deal of time and 
care you have taken, and the resolution is the optimal one and 
am glad to support it. That is your decision to make.
    Mr. Ridge. Thank you.
    Senator Dayton. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Governor Ridge, if I could just close up by just saying I 
wonder if we have a gaping hole here.
    Mr. Ridge. I hope not.
    The Chairman. Well, I hope not, either, but let's think 
about this. I will just take a couple of minutes here, and if 
you can't respond, maybe we will just do it in writing. When 
things come across our border in APHIS, APHIS is charged with 
the responsibility of making sure that what comes across our 
border in terms of animals and plants is not a threat to our 
animals and our plants. It doesn't take into account if it is a 
threat to human health safety. That is done by FSIS, Food 
Safety and Inspection Service, and the FDA. APHIS looks at the 
countries where it is coming from and if there is any 
possibility that it could infect our plants or our animals, 
foot-and-mouth disease, that type of thing.
    It seems to me if a terrorist wants to really terrorize our 
people, they might want to do something to affect food safety 
in terms of meat, meat products, vegetables, other things that 
may be coming across our border. That is what FSIS and FDA do.
    I don't see any proposal that the White House has, it 
doesn't mention food safety as a part of this. I am wondering 
whether this fits in because it seems like what you are going 
to do--at least I assume that Homeland Security would, if there 
is any indication of a threat, they would coordinate or call 
upon FDA and FSIS without putting them under Homeland Security. 
On APHIS, you put them under Homeland Security, and that is 
only covering one threat, the threat to plants and animals, not 
to humans. I am wondering if we might not want to think about 
how we put that there also; in other words, the protection of 
human health.
    What if someone came across the border, a terrorist, and 
they were able to contaminate something that made people sick 
and they were traced? I mean, that could terrorize a lot of 
people in our country, but that is not here under this 
proposal.
    Mr. Ridge. Well, conceivably, Senator, that, as I said 
before, there is a tremendous amount of synergy--maybe it is a 
word we use too often, but here it is appropriate--between the 
science and the detection of food security problems and food 
safety. Obviously, the FSIS and the FDA and others have much 
broader regulatory authority, and they are looking for natural 
contaminations rather than willful contaminations of animal and 
plant life. At the border it is very appropriate that we take 
that portion of APHIS to focus on food security.
    In the event that those who work in the various departments 
and agencies that deal with food safety issues suspect a 
terrorist act, clearly the resources and the collaboration with 
the new Department of Homeland Security would hopefully be a 
reflexive action. The first sign, the first indication, the 
first possibility that it is a terrorist act, engaging the 
Department of Homeland Security, calling in the FBI, bringing 
all the resources to bear to identify or to confirm whether it 
is or is not, and then trace back the etiology to determine 
where it may have begun and to take a look nationwide to see if 
there are other signs. Clearly, there will be the kind of 
collaboration and coordination on an ongoing basis between the 
food safety agencies and the Secretary of Agriculture and the 
new Department of Homeland Security.
    The Chairman. Well, we have to work on this. Someone once 
said to me, you are putting APHIS over there, that is fine. You 
are going to protect our animals and our plants. What about 
humans and the food that comes across our border? I thought, 
well, you are right. What about that?
    This needs to be further developed somehow and how you 
coordinate with FDA and FSIS on that. I don't have the answer. 
I am just throwing out the problem. That is all.
    Mr. Ridge. Senator, that we recognize we are both 
interested in resolving it. The existing structure, the way the 
department is organized does solve the problem.
    The Chairman. OK.
    Mr. Ridge. Obviously, as we chatted before the hearing, 
this deserves further conversation, and I look forward to that 
in the next few days, because I know you are working on a very 
limited time schedule, and I will look forward to that 
conversation.
    The Chairman. Thank you very much, Governor Ridge, and 
thank you for being here.
    Mr. Ridge. Thank you.
    [The prepared statement of Governor Ridge can be found in 
the appendix on page 31.]
    The Chairman. The committee will stand in recess. We will 
go over and vote and come back, and then we will have Secretary 
Veneman on.
    [Recess.]
    The Chairman. The Senate Committee on Agriculture, 
Nutrition and Forestry will resume its sitting. The committee 
had just heard from the Director of our Homeland Security, 
Governor Ridge, and we took a break to go vote. We are back now 
to get the input from our Secretary of Agriculture, the 
Honorable Ann Veneman. Again, this committee, Madam Secretary, 
is trying to wrestle with just exactly how we form and shape, 
in the best and most efficient managerial regime, the 
jurisdiction for Homeland Security and not only how they 
operate in the jurisdiction for USDA under APHIS but also under 
FSIS and what is the best model for that.
    As I said to Governor Ridge, as chairman, as an individual, 
I don't have any set beliefs or parameters, just what works 
best for homeland security. That is what we are interested in 
trying to figure out, and we certainly welcome your input and 
expertise on how we can best shape it so that we get the job 
done without getting into turf battles. I am not concerned 
about turf battles. I just want to know what works.
    We welcome you, Madam Secretary, and your statement will be 
made part of the record in its entirety, and please proceed as 
you so desire.

  STATEMENT OF HON. ANN M. VENEMAN, SECRETARY, UNITED STATES 
           DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Secretary Veneman. Thank you, Mr. Chairman. It is a 
pleasure to be before this committee again and to have the 
opportunity to talk about this very important subject. I 
appreciate the opportunity that you have given me to follow 
Governor Ridge today. That this is certainly a very important 
topic and one which we have worked very closely with Governor 
Ridge and the Department of Homeland Security all the way along 
since he has been appointed. What we are discussing today 
indicates that that relationship has been a very good working 
relationship. He certainly has a very good understanding of the 
importance of our food and agriculture system to the whole 
issue of homeland security.
    That as we look to how it is--what is appropriate as we 
move forward, as you know, the initial proposal would have 
transferred all of the Animal and Plant Health Inspection 
Service to the new Department of Homeland Security as well as 
Plum Island, through work with the House Ag Committee and with 
the Office of Homeland Security, we have created, as Governor 
Ridge referred to it, a tear line and we believe that the 
structure that has been agreed to within the House Ag 
Committee's proposal and I believe will be adopted, based on 
testimony that I was involved with yesterday, by the House 
oversight committee is the appropriate means by which to 
include the important role of agriculture inspection in the new 
Department of Homeland Security.
    We think that as you look at the various roles of the 
Animal and Plant Health Inspection Service there are a number 
of areas that then, under the House proposal, the Department 
will retain jurisdiction over. As you know, APHIS has a very 
broad responsibility, everything from biotechnology regulation 
to animal welfare to international issues including imports and 
exports, and all of the regulatory functions of APHIS will 
remain, under the House proposal, with the Department of 
Agriculture. We do endorse that proposal. We appreciate the 
collaboration we have had, and we look forward to working with 
you, as Senator Roberts has now indicated, he and others of 
this committee will introduce a parallel proposal in the 
Senate.
    I might add that we have been working very continuously on 
these issues for a number of months. As you know, just after I 
took office, we encountered the threat of foot-and-mouth 
disease, and we started to review all of our systems. We added 
money, we added inspectors, and we really began to look at our 
overall infrastructure in this regard.
    After September 11th, we began a whole other set of reviews 
that included a look at how do we know consider this real 
threat of an intentional act that might impact our food or 
agriculture. Again, we have used--our 2003 budget has allocated 
additional funds to beef up our programs. We got additional 
resources through the supplemental on homeland security. We are 
looking at the security of everything from our laboratories to 
our facilities to our research that needs to be done, to new 
diagnostic tests, and we continue to be very actively engaged 
in issues that impact on homeland security.
    Mr. Chairman, I appreciate the interest of this committee 
in this topic. It is something that we take very seriously, and 
I would be happy to answer your questions and the questions of 
those on the committee.
    The Chairman. Thank you very much, Madam Secretary.
    Again, we will go 3-minute time limits here on this.
    At a staff briefing with your staff and those from the 
Office of Homeland Security, we were told that there was no 
intention to increase FTEs. With 3,200 people being 
transferred, or at least being told to transfer--3,200 
employees from APHIS would be transferred over. Will you be 
able to carry out your agency's mission without APHIS in its 
entirety, or approximately--let's say that is about one-third 
of the people going over to Homeland Security. Or will you need 
increased numbers of employees?
    It seems to me that, we have a lot of other things to do in 
APHIS that is not concerned with homeland security, and if one-
third of those people are transferring, are you satisfied that 
you will be able to meet your obligations with the remaining 
work force?
    Secretary Veneman. Mr. Chairman, the way that this proposal 
that is now in the House has been structured is that the 
employees that would be transferred are those employees that 
are currently doing the border inspection work, which amounts 
to about 3,200, plus or minus.
    Now, some of those employees are also used in the case of 
an outbreak, and we will take some of those inspectors and put 
them on an emergency situation in the case of an outbreak of, 
say, citrus canker or med fly, something like that.
    The way we have envisioned this in working with the Office 
of Homeland Security and the way the new department would work 
is that we would have a cooperative agreement with the U.S. 
Department of Agriculture that we could utilize still people 
from the border inspection part that would be transferred over 
for cases of emergency. We believe with that arrangement it 
should not impact current operations of APHIS other than those 
at the border, and that the border capabilities would then also 
be carried out as they are now, just through a different 
agency.
    The Chairman. Thank you very much, Madam Secretary.
    Senator Roberts.
    Senator Roberts. Yes, I have three questions. Thank you, 
Madam Secretary. Thank you for your leadership in this whole 
area. I hope you can do more with the same or less. I have 
every confidence you will do your best.
    You have already answered this question. I just want to ask 
it for the record. Do you believe the split of APHIS functions 
between the USDA and Homeland Security, as outlined in the 
House Agriculture Committee proposal and in the Miller-Allard-
Roberts bill and others to come, is the proper division of 
functions?
    Secretary Veneman. Yes.
    Senator Roberts. Thank you.
    Assume under a worst-case scenario--and you testified about 
a real threat scenario and looking ahead, and when you first 
assumed office, we had a good talk about this in regards to 
homeland security, agroterrorism, and the threat to our food 
supply. I truly appreciate that conversation and the many 
conversations we have had since that time. If we determined we 
had an intentional or unintentional outbreak of disease in 
multiple counties and locations all throughout the country, are 
we really prepared to handle this? Or do you think it would be 
useful to establish an organization within the USDA or to 
expand APHIS to create the equivalent of something like a CDC 
for agriculture?
    I know that has budget implications, policy implications. 
Now is not the best time to ask you that question. Down the 
road it seems to me that something like that certainly would be 
needed.
    Secretary Veneman. Well, Senator, that your question is a 
very good one, and it is obviously an issue we have spent a 
considerable amount of time looking at, and looking at our 
response mechanisms. It is very important that, as we looked at 
the whole foot-and-mouth disease situation we saw last year, as 
we then looked at much broader scenarios with the post-9/11, we 
have worked to not only strengthen our prevention but look at 
what would happen in the event of an outbreak.
    We have brought in our States. We have brought in 
universities. We have worked with other departments. We have 
had interagency meetings with FEMA and all of the other 
agencies that might be involved if we were to get an outbreak. 
We have been involved in exercises. While you can always do 
more in terms of preparedness, I believe that the Department 
has taken considerable steps in trying to be continuously 
better at what they are doing and in their preparedness.
    In terms of setting up additional offices, we have been 
strengthening our emergency response systems. We have 
integrated in something in our Forest Service, for example, the 
emergency teams that go out to forest fires. You know, they 
were used in New York City on 9/11, but we have also discovered 
they can be used for logistical support in the event of an 
outbreak. We recently did that in a case of avian influenza in 
Virginia, where we brought in the Forest Service logistical 
support.
    We think by thinking outside the box a little bit that we 
are improving our response systems and that we will continue to 
do so, and we have been working with the Office of Homeland 
Security, and we look forward to continuing that relationship 
with the new Department of Homeland Security.
    Senator Roberts. Mr. Chairman, my time has expired. Could I 
be permitted 30 seconds for a real quick question?
    The Chairman. Absolutely.
    Senator Roberts. Along those lines, have you contracted 
with any outside parties or organizations to pursue a 
missionary analysis or something that I call a ``war game 
scenario'' to determine or identify any vulnerabilities in 
disease management functions, maybe located--and I am talking 
about consequence management or what Director Ridge called 
crisis management? Are you that far along the line in terms of 
those steps that you are considering?
    Secretary Veneman. Well, we are working with a number of 
organizations on different kinds of issues. We have had an 
outside firm looking at laboratory security issues. We have 
worked with some universities on some scenario planning types 
of issues. We will be glad to work with you and brief you on 
all of the kinds of outside activities that----
    Senator Roberts. I was thinking of the Dark Winter exercise 
which became not only famous but infamous, not that I am 
encouraging you to do that, but something of that nature. I 
appreciate your response.
    Thank you, Mr. Chairman.
    The Chairman. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Those agencies that don't get transferred, that stay within 
the Department, what are you doing to assure that they 
coordinate their efforts on agroterrorism with the new 
Department of Homeland Security?
    Secretary Veneman. Well, as I indicated, we will have some 
memorandums of understanding with the department, but it is 
very important to recognize that we have worked very closely 
with the Office of Homeland Security since the President 
initiated it in October, a very close working relationship. We 
have coordinated our activities. They have become very 
cognizant of the issues that impact the food and agriculture 
system. Certainly the fact that they are putting put of the 
agriculture inspection service into the new department is a 
recognition of how important these issues are.
    This is an administration that works very closely together 
on a whole host of issues, and when it comes to food issues and 
homeland security, we have worked closely not only with that 
office but also with HHS and particularly Food and Drug 
Administration. I would anticipate that those relationships 
would continue to strength, if anything, and that we would 
continue to work very closely in an interagency coordinated way 
to continue to make sure that everything is coordinated 
completely.
    When you look at the response systems that FEMA has, for 
example, when we have a disaster today, we have a very 
coordinate Government system. The new Department of Homeland 
Security will make those systems even stronger because it will 
bring resources together. That doesn't undermine the fact that 
you are going to need very, very strong working relationships 
with all the departments and the regulatory agencies in 
particular.
    Senator Allard. If we had an outbreak of, say, foot-and-
mouth disease on our border with Mexico it would bring up all 
sorts of international issues and whatnot. Who negotiates that? 
Is that the Department of State or is that all the agencies 
sitting down? Who negotiates with what agency in Mexico? Is 
that Agriculture or will they have a comparable law enforcement 
division over there? Have we given that some thought?
    Secretary Veneman. Well, it would be an interagency 
coordination, but Agriculture would have a key role. We work 
very, very closely with the Department of Agriculture in Mexico 
on regulatory issues, on animal health issues.
    As you know, I was involved in the Agriculture Department 
in the State of California, and we had agreements of all the 
border States on animal disease issues because of this very 
issue. You have an animal disease or you have a med fly 
outbreak. Animal diseases don't know that there is a border 
there, and so we have a number of cooperative agreements, both 
at the Federal level, primarily through APHIS, and also at the 
State level through our State veterinarians, on how these kinds 
of things are controlled and what we would do in the event of 
an outbreak. I would think that those relationships would just 
continue on and be strengthened.
    Senator Allard. My time has expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Allard.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Madam Secretary, I commend you and Governor Ridge for 
having worked out this division, which seems like a good one, 
and I would be happy to support it, as well as others, and 
thank you for that.
    In Minnesota, as in many other States, homeland security is 
very much a part of the state of our agricultural economy, so I 
hope you will permit me that little extension as a way of 
asking you just a couple of questions. One, we talked before 
the hearing began here about the situation with Russia, and I 
have several turkey growers from Minnesota actually waiting in 
my office right now watching this hearing on television. I will 
be meeting with them. Can you give us any indication or update 
of what you and Ambassador Zoellick and others think is the 
future there?
    Secretary Veneman. Well, we have worked very diligently in 
our administration to try to resolve this issue with the 
difficulties we have had with Russia and our poultry exports. 
As you know, our largest export to Russia of anything, outside 
of food and agriculture as well, is poultry. This has been 
something that has been of extreme interest to the entire 
administration, and there has been a high level of engagement.
    We have had a number of teams go to Russia. We have had 
Russian teams come here. We most recently had a team in Russia 
that included our Under Secretary J.B. Penn. We feel that we 
have made considerable progress during that visit. There have 
been letters that are being exchanged even as we speak today. 
We remain hopeful that we can reach a quick resolution to this 
issue and get the agreed protocols negotiated so that trade can 
resume, hopefully in a manner that brings it up to near the 
levels that we had before.
    Again, we had not anticipated that it would take so long to 
resolve this issue. We are continuing to work very diligently 
to get it done.
    Senator Dayton. Well, thank you, and thank you for your 
efforts there.
    As we also discussed before--so I am not, hopefully, 
surprising you--the Senate bill which Senator Harkin so 
masterfully put together has as one of its key components 
disaster assistance money, and the House did not and, 
unfortunately, would not accede. I have a number of farmers--
others do as well in the States, this strange anomaly where in 
some States they are burning up, and others like Minnesota are 
under water, farmers who have lost 90 to 100 percent of their 
crops, and without the countercyclical payments and without the 
disaster assistance that the House took out. I am told 
indirectly that there is thought that there is money in the 
Farm bill that was just passed that would be available for 
disaster assistance, which, of course, the Senate had made 
arrangements for, but I don't see any--is there any hope for 
the farmers who have lost their crops in terms of disaster 
assistance, either through existing funds that I am not aware 
of or through--would the administration be willing to support 
additional disaster assistance for those who don't have a crop?
    Secretary Veneman. Well, Senator, we are very aware that 
there have been some extreme weather conditions that have 
impacted not only our farmers and ranchers, but this has been 
the most extreme fire season we have seen in almost history. 
The extreme weather conditions have been a big issue in our 
Department, obviously.
    We have taken every tool that we have in our tool box and 
tried to make it available to people who have suffered this 
year because of weather, whether it is opening up CRP to haying 
and grazing. We have declared disasters as quickly as possible 
in counties where it has been requested because that then makes 
the emergency loans available to the farmers and ranchers. We 
have even opened up haying and grazing on non-disaster counties 
so that they can help out with the people that are suffering in 
the disaster counties. We have been doing everything we can to 
try to alleviate the disastrous situation.
    Senator Dayton. Well, I believe you have and I thank you 
for that, and you have extended the resources as far as 
possible. I guess I would just ask if you would implore the 
President on behalf of the farmers in Minnesota, who really are 
suffering, and consider the disaster aid, without which many of 
them won't be around next year.
    Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    The Chairman. Madam Secretary, thank you. I just have one 
follow-up question. The USDA and the White House indicate that 
at any one time, APHIS will have to borrow about 15 to 20 
percent of the 3,200 former employees to meet domestic 
agricultural health responsibilities.
    All of those 3,200 are not just used in the case of an 
outbreak. If we need 15 to 20 percent of those to do non-border 
activities, such as invasive species work, enforcing domestic 
quarantines, or monitoring and surveillance, I guess what I am 
wondering then again is do we leave a gap at the border if you 
at any one time have 15 to 20 percent of these plant and 
quarantine officers just to meet APHIS' day-to-day 
responsibilities.
    That is why I was asking so many questions about the FTEs, 
because we have indications that at any time you would need 15 
to 20 percent for day-to-day activities, but then how much do 
they need for border activities? Maybe we don't really need to 
transfer 3,200.
    Secretary Veneman. Well, let me see if I can explain that 
as well as I understand it. We utilize up to 15 to 20 percent 
of the inspectors during certain times when we have outbreaks. 
We have a lot of people assigned in Florida, for example, 
because it is a big State both in terms of airports and, as 
well, shipping ports. We have also had citrus canker and we 
have had control because of that disease and we have needed 
additional APHIS people, so they have been rotated in for 
control of that disease.
    Under the proposal, as it now has been passed by the House 
Ag Committee, that would anticipate that we would have contract 
authority and a memorandum of understanding so that we could 
still utilize those resources.
    We have overall increased inspectors over the last year-
and-a-half since we have been in office, primarily because of 
the foot-and-mouth disease and then 9/11, and through the 
emergency funds and additional funding that we have put in. We 
believe that with the flexibility of this memorandum of 
understanding that we can maintain the level of inspection, as 
well as the level of containment and control and eradication 
that we need.
    I might also add that I believe that as you put all of 
these people under the same department, we will be doing more 
cross-training. For example, I would anticipate that Customs 
inspectors will be better prepared to look and ask the right 
questions about food and agriculture, so that we will gain 
resources, in my view, because of the agencies with whom the 
APHIS inspectors will be housed.
    The Chairman. Thank you, Madam Secretary.
    Did you have any followup at all, Senator Allard?
    Senator Allard. No, Mr. Chairman.
    The Chairman. Thank you very much.
    Madam Secretary, thank you very much for taking time from 
your busy schedule to come up here.
    Secretary Veneman. Thank you, Mr. Chairman and members.
    The Chairman. We will work with you, and also Governor 
Ridge, to get this thing figured out.
    Secretary Veneman. Thank you.
    The Chairman. Thank you, Madam Secretary.
    [The prepared statement of Secretary Veneman can be found 
in the appendix on page 37.]
    The Chairman. Now, we will call Dr. Alfonso Torres, 
Associate Dean of Veterinary Public Policy and Director of the 
New York State Animal Health Diagnostic Laboratory at Cornell 
University. Dr. Torres was the former APHIS Deputy 
Administrator for Veterinary Services.
    Dr. Torres, we welcome you to the committee and your 
statement will be made part of the record in its entirety. If 
you would just summarize for us, we would be most appreciative.

STATEMENT OF ALFONSO TORRES, ASSOCIATE DEAN, VETERINARY PUBLIC 
 POLICY, AND DIRECTOR, NEW YORK STATE ANIMAL HEALTH DIAGNOSTIC 
LABORATORY, COLLEGE OF VETERINARY MEDICINE, CORNELL UNIVERSITY, 
                        ITHACA, NEW YORK

    Dr. Torres. Thank you, Chairman Harkin, members of the 
committee. Good afternoon. Thank you for the invitation to come 
here.
    As you requested, I am going to shorten by formal remarks 
before I can answer some questions. I must indicate to you, Mr. 
Chairman, that when I prepared these written remarks I was not 
aware of the amendment to the House bill that has made 
significant changes to the original proposal of the President. 
If I may, let me go right to the five points or recommendations 
that I indicated in my remarks and make reference to those as 
the current proposal stands.
    Let me say also, Mr. Chairman, that I am making these 
comments based on my extensive experience at the USDA, 8 years 
at Plum Island in charge of foreign animal disease diagnostic, 
and then director of the center, and then the last 3 years here 
in Washington, DC, working with Secretary Veneman and previous 
Secretary Glickman on animal health issues for the United 
States.
    My first recommendation or point was exactly what the House 
bill has done in modifying that only the port inspectors will 
be transferred to the Department of Homeland Security. However, 
I do have similar concerns to the ones that you have expressed 
in the sense that PPQ, plant protection and quarantine, depends 
on many of those port inspectors for plant health activities.
    This is a little bit different than what we have on the 
animal health side, in which we have permanent personnel 
located in all 50 States that deal on a day-to-day basis with 
issues of animal health, whether we have an emergency or not. 
That is not exactly the same situation as PPQ is organized in 
APHIS. They depend quite a bit on those port inspectors when 
they have plant disease outbreaks.
    If those port inspectors will go to the Department of 
Homeland Security, I will suggest that either USDA will retain 
some funding or personnel to fill the gap that you identified 
in your remarks.
    My second remark or recommendation is that there are some 
import/export permitting activities for restricted agents, now 
called selected agents, that need to be coordinated between 
APHIS and Customs. That has been taken care of by the 
development of a new selected agent list, and that the two 
agencies are well coordinated there.
    A third point I would like to raise and a point that I have 
not heard up to this point in time is that APHIS from time to 
time during the past few years, certainly while I was there, 
was suggesting that there is a need to have emergency 
management specialist veterinarians located at FEMA. FEMA is 
taking more of a role of dealing with national disasters or 
disease outbreaks where animals are involved and they need to 
have this veterinary expertise within the FEMA organization.
    Whether FEMA stays or not within the Department of Homeland 
Security, I will suggest that the proposals that were put 
forward by APHIS in the past of having veterinarians in the 
headquarters of FEMA and one specialist in emergency management 
animal health issues at each one of the eight FEMA regions 
should be given consideration.
    My fourth point is in relation to the animal and plant 
health laboratories and science centers. The question came 
recently from Senator Roberts about whether or not APHIS should 
have a CDC-like organization, and my answer to that is that we 
do indeed have that organization in place.
    APHIS has the National Veterinary Services Laboratories at 
Ames, Iowa, with one of their labs is located at Plum Island. 
They have the Centers for Epidemiology and Animal Health in 
Fort Collins, Colorado, and the Center for Veterinary Biologics 
in Ames, Iowa.
    All these are, in essence, very, very similar in activities 
and organization as to what CDC has for human health, and I 
will suggest that the same treatment that CDC has had should be 
applied to these centers. Except for Plum Island, that the new 
amendment in the House bill takes care of that.
    My final points are in relation to Plum Island, a place 
where I spent 8 years with USDA in top managerial leadership 
positions. As most people know, Plum Island was created back in 
the 1950's with the main purpose of working with the foot-and-
mouth disease virus because at the time the bio-containment 
technologies that existed required around the world that these 
centers would be located in an island setting. That is no 
longer the case today. Actually, most centers around the world 
working with foot-and-mouth disease are located on the 
mainland.
    Because Plum Island was then created with these bio-
containment characteristics, then all the highly contagious 
diseases were moved to work at Plum Island. It is important, 
Mr. Chairman, to point out and to remember that not all foreign 
animal diseases are diagnosed or worked at Plum Island. Many of 
these diseases--all poultry diseases, all equine diseases, and 
many diseases that affect other species, including mad cow 
disease, chronic wasting disease, and scrapie--are diagnosed at 
Ames, Iowa. The notion that Plum Island is the only center in 
the United States where foreign or highly contagious diseases 
are worked is not correct.
    We have other activities at Plum Island. We also have 
research activities in some of the diseases that, because of 
the requirements of the law, need to be done at Plum Island, 
mainly foot-and-mouth disease and other highly contagious 
diseases.
    All the APHIS labs, at Ames, Iowa, and at Plum Island, also 
deal with zoonotic diseases, and in those cases there is a 
great deal of coordination with CDC, and I include in here 
working with rabies, working with the west Nile virus, and 
working with encephalitic conditions that affect horses and 
humans as well.
    While I understand to a certain degree the idea of having 
better coordination by moving a major Federal lab into Homeland 
Security, I will put forward the question of why is Plum Island 
singled out when it is not the only place in the United States 
where foreign animal diseases are studied?
    Second, given the similar nature of APHIS labs to CDC labs 
or NIH labs, why are those labs not transferred to the 
Department of Homeland Security? All scientific labs providing 
diagnostic scientific support for diagnosis of human or animal 
diseases should be treated the same.
    In the case of CDC and NIH, it is my understanding that 
they will remain under HHS and Homeland Security will provide 
additional moneys or programs to enhance their needs in case of 
bio-terrorism or other terrorism, for that matter. I will 
suggest that perhaps it will be good to think in those terms 
for all those scientific centers of APHIS.
    Thanks again, Mr. Chairman, for the opportunity to come 
here to speak to you and I will be glad to answer any specific 
questions that you may have.
    The Chairman. Well, Dr. Torres, thank you very much because 
you bring some valuable experience as former Deputy 
Administrator and also Director of the Plum Island facility.
    Let me see if I understand correctly the summation of your 
testimony. What you are basically saying is since the only 
facility being transferred is Plum Island--that is the one that 
they want to transfer, but they will be coordinating with all 
these other facilities for human health and safety and plant 
and animal safety.
    Are you saying that they could have the same type of 
arrangement with Plum Island? In other words, they could be 
used to fight bio-terrorism, but not necessarily transferred. 
Is that what you are saying in terms of Plum Island?
    Dr. Torres. Yes, Senator Harkin. What I am saying is Plum 
Island provides scientific basis, diagnostic technologies, and 
research on some of the foreign animal diseases that could be 
used for a bio-terrorism event. The same thing happened with 
the other laboratories in Ames, Iowa.
    The Chairman. Right.
    Dr. Torres. Plum Island is not exclusive for having these 
technologies. Those technologies exist in other APHIS 
laboratories in the country. What I am suggesting is that the 
same situation happens with the CDC labs in regard to human 
diseases.
    CDC provides the scientific basis, diagnosis, and 
surveillance for human diseases that could be used for bio-
terrorism, and the President's proposal did not call for moving 
CDC labs from Atlanta or Fort Collins into Homeland Security, 
but provides some ways to enhance their capabilities through 
funding and cooperative programs.
    I am suggesting that Plum Island could and perhaps should 
be treated in the same way; that is, leaving it under the 
jurisdiction of USDA, but providing additional moneys and 
programs to enhance the needs of the new department in regard 
to agents of agroterrorism.
    The Chairman. I say to my friend, Senator Allard, this is 
the one thing that bothers me, or I am just concerned about 
anyway, and that is that with the other elements of human 
safety, CDC remains basically as it is, but will work in a 
collaborative function with the Department of Homeland 
Security; NIH labs the same thing.
    On Plum Island, they want to move it over there, but still 
there are a lot of things that go on at Plum Island that deal 
with safety and health things that aren't necessarily terrorist 
activities that we need there. I am just wondering why couldn't 
there be the same arrangement with Plum Island as they have 
with CDC labs. This is where I am a little hesitant.
    Again, you know about this kind of stuff. Maybe this was 
the first reaction was to say that they should move it over 
there, but I am not certain it should be. I am not expert 
enough to know, but I rely upon people like you and Senator 
Allard and others who know this better than I do.
    That is the essence of what you were saying?
    Dr. Torres. Yes, sir.
    The Chairman. Do you have any thoughts on that, Senator 
Allard?
    Senator Allard. Well, Mr. Chairman, there are foreign 
disease studies done in the United States, but I don't believe 
they are keeping live animals, for example, for study except on 
Plum Island.
    Chronic wasting disease, he suggested, doesn't occur in the 
United States. If you will pardon this getting a little 
technical, we have spongiform encephalopathies. These kinds of 
lesions are caused by a group of diseases--chronic wasting 
disease, scrapie.
    Mad cow disease doesn't occur in the United States. We have 
chronic wasting disease, which is a wildlife disease, and 
scrapie--these diseases have similar lesions, but mad cow 
disease itself, does not occur in the United States. There 
would not be any research done on that disease, nor any of the 
other foreign diseases, because the United States wants to 
claim that we are free of these foreign diseases.
    As you observed with foot-and-mouth disease, for example, 
if we let this in on the mainland, we could no longer make that 
claim. You saw what happened to trade with England. It shuts 
off. We don't want that to happen to our cattle producers here 
in this country. That is why we have Plum Island set over here, 
not on the mainland; so that we can make those claims and why 
we make those studies there.
    That doesn't happen with the human diseases so much. They 
are classified a little higher, too, on security perhaps. You 
don't have the industry impact and the claim of whether you 
have the disease on the mainland making an impact on whether 
you can export or import. That is the basic difference between 
the two.
    There are zoonotic diseases that both the CDC lab in 
Georgia and the one in Fort Collins, study. The lab in Fort 
Collins deals mainly with what we call vector diseases, 
diseases that are transmitted through an insect. They 
specialize in that, and the rest of the diseases are handled at 
the CDC lab in Atlanta, Georgia.
    There is kind of a fundamental difference between the two 
labs and how their research relates to trade. We want to make 
the claim that we don't have these diseases in the United 
States, but we also want to have a facility where we can do the 
research. Those diseases that occur at the CDC lab don't 
necessarily affect disease because there aren't countries that 
make rules and regulations on transporting animals. With on 
human diseases, it is probably not as apt to have an impact on 
trade issues.
    The Chairman. My question is will most of the work in the 
future at Plum Island be focused on terrorism threats and 
bioterrorist threats, or will most of the work there be done on 
what we have been doing all along, and that is, if you will 
permit me, the common old garden-variety types of threats that 
we have had from infestation into this country from other 
countries?
    If it is the latter, and only periodically would they be 
used to do something in the anti-terrorism regime, it would 
seem to me that the best thing would be to leave Plum Island 
under APHIS, but to have a collaborative type of an agreement 
with the Department of Homeland Security.
    If, however, the majority of the work that is going to be 
done there is of a nature that concerns itself with terrorist 
threats and a minority of its work is in the ongoing types of 
research and scientific work we do now, then I can see moving 
it to DHS and have a collaborative arrangement with APHIS. That 
is what I am wrestling with.
    Senator Allard. There is a greater likelihood that the 
diseases that you see at Plum Island would be used in bio-
terrorism because of the impact they could have on the economy 
of this country.
    Take foot-and-mouth, for example. It would really shut down 
the agricultural economy in this country. I would suspect that 
it would have some appeal to a bioterrorist if he wanted to 
severely disrupt the agricultural economy in the United States.
    The Chairman. Dr. Torres, any thoughts on our little 
discussion here?
    Dr. Torres. There are about 50 diseases that are foreign to 
the United States that can affect livestock and poultry. Of 
those, not all of them again are worked at Plum Island. As I 
mentioned, avian diseases are diagnosed in Ames, Iowa. Avian 
influenza, for example, could shut down--and we have seen what 
happened with the non-pathogenic avian influenza in Virginia, 
let alone what could happen if we have the highly pathogenic 
form. All of that work is done at Ames, Iowa. Venezuelan equine 
encephalomyelitis, which is a disease that is also zoonotic for 
humans, as you well know, is done at Ames, Iowa.
    My point is that not everything that could be used as a 
bioterrorist weapon is done at Plum Island. Certainly, the most 
highly contagious are, but there are many others that also 
could shut our trade down that are done at Ames, Iowa. That 
makes an illogical separation of Plum Island away from other 
units of APHIS, and ARS for that matter, that are working with 
agents that also could be used for bio-terrorism.
    The Chairman. To belabor this a little bit further, as I 
understand it, what the House did--and my staff just kind of 
corrected me on this--what the House did is they transferred 
the facility of Plum Island to Homeland Security.
    Senator Allard. That is correct.
    The Chairman. All the people there and the professional 
staff would stay with USDA. Now, I am not certain if that makes 
much sense. Maybe it does. I don't know.
    Senator Allard. I am not sure that jives with the testimony 
we got earlier from Secretary Veneman. We will have to check 
that out.
    The Chairman. That is what I am told here. My staff is all 
nodding their heads. They are saying that that is in accordance 
with the briefing they attended from the White House that they 
would move the facility, but the USDA professional staff would 
stay with USDA. I don't know. As I said, I am not an expert in 
this area, so I don't know if that is a logical thing to do or 
not.
    You and I have to talk about this.
    Senator Allard. Yes.
    The Chairman. You have to tell me what you think is the 
best on this. I just don't know if that makes sense or not. I 
don't know.
    One more time, Dr. Torres, how would you see it? They are 
moving the facility, but they leave the people.
    Dr. Torres. Senator, it is not clear to me the actual 
meaning of the text of the amendment of H.R. 5005. It says that 
the Plum Island Animal Disease Center, including assets and 
liabilities, will be moved to the Department of Homeland 
Security. As I understand it, in the definitions of this bill 
that means building, equipment, the physical structures.
    Then the second paragraph indicates that the Department of 
Agriculture shall enter into an agreement to ensure that the 
Department of Agriculture has access to the center for 
research, diagnostic, and other activities. There is language 
that indicates that even though the facilities would be 
transferred, USDA will have to access to the activities of 
research, diagnosis, and training. It is not clear to me, at 
least, the meaning of that amendment.
    The Chairman. This is something we are going to have to 
clear up.
    Senator Allard. Yes, we have to clear up the term 
``professional staff.''
    The Chairman. That is probably right.
    Senator Allard. If you are running a diagnostic lab, it 
makes sense to keep the veterinarians and the pathologists in 
the Department of Agriculture. I just don't know what is 
included under the definition of ``professional staff.''
    The Chairman. We are going to have to get our staffs 
together and take a look at this. I am told it is because the 
employees are either ARS or APHIS employees who don't work for 
the Plant Protection and Quarantine Service. That is what I am 
told, anyway, so I do believe we are going to have to look at 
this.
    I thank you again very much, Dr. Torres, for coming here 
and presenting this testimony. I hope we can call on your 
expertise as we work this through in the future.
    Did you have another question?
    Senator Allard. No, I don't, Mr. Chairman.
    The Chairman. Again, I would conclude by saying that these 
are things we are going to have to work out. As I said to 
Governor Ridge, I don't have any preconceived notions on this 
or territorial types of claims or anything like that; whatever 
works the best and the smoothest.
    I mean, obviously we have gone from transferring all of 
APHIS, which would have involved the Department of Homeland 
Security inspecting and caring for circus animals in this 
country, which obviously they don't want to do, and they 
shouldn't--so we have gone from that to a clearer delineation 
of what really Homeland Security ought to have.
    Perhaps we need to refine it a little bit further here and 
make sure that we have, again, the best functional operation, 
whatever works smoothest and managerially is the best setup. 
That is what we are going to be wrestling with here.
    Dr. Torres, thank you very much for being here.
    Dr. Torres. You are welcome.
    [The prepared statement of Dr. Torres can be found in the 
appendix on page 40.]
    The Chairman. The committee will stand adjourned to the 
call of the Chair.
    [Whereupon, at 3:52 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 17, 2002



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6215.001

[GRAPHIC] [TIFF OMITTED] T6215.002

[GRAPHIC] [TIFF OMITTED] T6215.003

[GRAPHIC] [TIFF OMITTED] T6215.004

[GRAPHIC] [TIFF OMITTED] T6215.005

[GRAPHIC] [TIFF OMITTED] T6215.006

[GRAPHIC] [TIFF OMITTED] T6215.007

[GRAPHIC] [TIFF OMITTED] T6215.008

[GRAPHIC] [TIFF OMITTED] T6215.009

[GRAPHIC] [TIFF OMITTED] T6215.010

[GRAPHIC] [TIFF OMITTED] T6215.011

[GRAPHIC] [TIFF OMITTED] T6215.012

[GRAPHIC] [TIFF OMITTED] T6215.013

[GRAPHIC] [TIFF OMITTED] T6215.014

[GRAPHIC] [TIFF OMITTED] T6215.015

[GRAPHIC] [TIFF OMITTED] T6215.016

[GRAPHIC] [TIFF OMITTED] T6215.017

[GRAPHIC] [TIFF OMITTED] T6215.018

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 17, 2002



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6215.019

[GRAPHIC] [TIFF OMITTED] T6215.020

[GRAPHIC] [TIFF OMITTED] T6215.021

[GRAPHIC] [TIFF OMITTED] T6215.022

[GRAPHIC] [TIFF OMITTED] T6215.023

[GRAPHIC] [TIFF OMITTED] T6215.024

[GRAPHIC] [TIFF OMITTED] T6215.025

[GRAPHIC] [TIFF OMITTED] T6215.026

[GRAPHIC] [TIFF OMITTED] T6215.027

[GRAPHIC] [TIFF OMITTED] T6215.028

[GRAPHIC] [TIFF OMITTED] T6215.029

[GRAPHIC] [TIFF OMITTED] T6215.030

[GRAPHIC] [TIFF OMITTED] T6215.031

[GRAPHIC] [TIFF OMITTED] T6215.032

[GRAPHIC] [TIFF OMITTED] T6215.033

[GRAPHIC] [TIFF OMITTED] T6215.034

[GRAPHIC] [TIFF OMITTED] T6215.035

[GRAPHIC] [TIFF OMITTED] T6215.036

[GRAPHIC] [TIFF OMITTED] T6215.037

[GRAPHIC] [TIFF OMITTED] T6215.038

[GRAPHIC] [TIFF OMITTED] T6215.039

[GRAPHIC] [TIFF OMITTED] T6215.040

[GRAPHIC] [TIFF OMITTED] T6215.041

[GRAPHIC] [TIFF OMITTED] T6215.042

[GRAPHIC] [TIFF OMITTED] T6215.043

[GRAPHIC] [TIFF OMITTED] T6215.044

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             July 17, 2002



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6215.045

[GRAPHIC] [TIFF OMITTED] T6215.046

[GRAPHIC] [TIFF OMITTED] T6215.047


</pre></body></html>
